OFFICE OF INSPECTOR GENERAL


FOLLOW-UP AUDIT OF
USAID’S CARGO
PREFERENCE
REIMBURSEMENTS UNDER
SECTION 901d OF THE
MERCHANT MARINE ACT OF
1936
AUDIT REPORT NO. 9-000-06-005-P
April 27, 2006




WASHINGTON, DC
Office of Inspector General


April 27, 2006

MEMORANDUM

TO:                  DCHA/FFP Acting Director, Jonathan Dworken

FROM:                IG/A/PA Director, Steven H. Bernstein /s/

SUBJECT:             Follow-up of Recommendation No. 1 Included in the Audit of USAID’s Cargo
                     Preference Reimbursements under Section 901d of the Merchant Marine Act of
                     1936, Audit Report No. 9-000-01-003-P, dated March 30, 2001.
                     (Report No. 9-000-06-005-P)

This memorandum is our final report on the subject audit. In finalizing this report, we
considered your comments on our draft report and have included your response in Appendix II

This report does not contain any recommendations for your action.

Once again, I want to express my sincere appreciation for the cooperation and courtesy
extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

   Did USAID’s Office of Food For Peace request the
   Commodity Credit Corporation prepare and submit to
   the Maritime Administration invoices to recover all
   outstanding cargo preference reimbursements for
   excess ocean freight for shipping costs incurred under
   P.L. 480 Title II and Title III programs?

Audit Findings ................................................................................................................. 4

Evaluation of Management Comments ......................................................................... 6

Appendix I – Scope and Methodology .......................................................................... 7

Appendix II – Management Comments ......................................................................... 9

Appendix III –20 Percent Excess Ocean Freight Reimbursements Received … . ...10
SUMMARY OF RESULTS
The Office of Inspector General (OIG), Performance Audits Division, conducted this
follow-up audit to determine whether the Director of Food for Peace took corrective
action on Recommendation No.1 of the Office of Inspector General’s Audit of USAID’s
Cargo Preference Reimbursements under Section 901d of the Merchant Marine Act of
1936, (Audit Report No. 9-000-01-003-P), dated March 30, 2001. Recommendation No.
1, recommended that the Director of Food for Peace request the U. S. Department of
Agriculture’s (USDA) Commodity Credit Corporation (CCC) to prepare and submit
invoices to recover all outstanding cargo preference reimbursements for excess ocean
freight and to determine if all outstanding reimbursements 1 were recovered (see pages 2
and 3).

On August 17, 2001, USAID’s Office of Food for Peace (FFP) requested the CCC to
prepare and submit invoices to the Department of Transportation’s Maritime
Administration for the outstanding reimbursement for excess ocean freight. After a
lengthy calculation methodology dispute, USAID recovered the outstanding
reimbursement valued at approximately $193 million, 2 as of September 2004 (see page
4).

FFP officials have begun increasing their management controls over the cargo
preference reimbursement process by conducting verification procedures to increase the
efficiency and effectiveness of the process. As a result of these efforts, FFP determined
that USDA’s estimated reimbursement calculations were reasonable for fiscal years
1994 - 2000 (see page 4).

In addition, USAID, USDA and the Department of Transportation are working together to
improve aspects of the Cargo Preference Reimbursements process that includes
updating a memorandum of understanding, clarifying calculation methodologies, and
investigating payment options for reimbursements (see page 5).

Management comments are included in the report at Appendix II (see page 9). USAID’s
Office of Food For Peace agreed with the contents of this audit report.




1
  In March 2001, the OIG determined that USAID was due an estimated $175 million in
outstanding reimbursement for excess ocean freight.
2
   After CCC made further calculations, the corporation estimated that USAID should be
reimbursed approximately $193 million for 20 percent excess ocean freight.


                                                                                       1
BACKGROUND
The United States implements its international food assistance initiatives through five
separate food assistance programs. 3 Each of the five food assistance programs is
required by law to ship a certain percentage of tonnage on privately-owned U.S.-flag
commercial vessels. This requirement, known as “cargo preference,” is found in the
Merchant Marine Act of 1936 (the “Act”), as amended. In 1985, Congress amended the
Act to increase this requirement from 50 percent to 75 percent for commodities shipped
under certain U.S. food assistance programs. At the same time, Congress directed that
any increase in food assistance shipping costs under these programs, due to the
application of this new cargo preference requirement, would be financed by the U.S.
Department of Transportation.

A 1987 Memorandum of Understanding between USAID, the United States Department
of Agriculture’s (USDA) Commodity Credit Corporation (CCC), and the Department of
Transportation’s Maritime Administration, set forth procedures through which the
Maritime Administration would reimburse CCC for higher shipping costs resulting from
the 1985 amendment. The Memorandum of Understanding provided that CCC would
initially bear all ocean freight costs and that the Maritime Administration would then
reimburse CCC based upon the submission of periodic invoices, accompanied by
supporting documentation.         After receiving reimbursements from the Maritime
Administration, CCC would arrange for reimbursed amounts to be apportioned to the
food assistance programs from which they originated. Any rights USAID had to cargo
preference reimbursements arose from this 1987 Memorandum of Understanding, as
well as customary practices between USAID and USDA concerning the administration
and funding of P.L. 480 Title II and III programs.

In 2001, USAID’s Office of Inspector General issued an audit report 4 stating, among
other things, that as of February 2001, USDA had not claimed an estimated $175 million
in reimbursements for excess ocean freight costs incurred from fiscal year (FY) 1993 to
FY 2000, on behalf of USAID. According to the aforementioned report, this occurred
because USDA officials were unclear as to which office had the responsibility for
preparing and submitting reimbursement claims for excess ocean freight costs.
Furthermore, USAID was unaware that these reimbursements were not being claimed
because of competing management priorities and the lack of sufficient qualified staff to
monitor the cargo preference reimbursements.



AUDIT OBJECTIVE
As a part of the fiscal year 2006 audit plan, the Office of Inspector General conducted
this follow-up audit to verify and evaluate the final action on a selected audit
recommendation from the Audit of USAID’s Cargo Preference Reimbursements under
3
  The U.S. Department of Agriculture administers the P.L. 480 Title I, Section 416 (b), Food for
Progress, and Food for Education programs, while USAID is responsible for administering funds
for food assistance under P.L. 480 Titles II and III.
4
  Audit of USAID’s Cargo Preference Reimbursements under Section 901d of the Merchant
Marine Act of 1936, Audit Report No. 9-000-01-003-P, dated March 30, 2001.


                                                                                              2
Section 901d of the Merchant Marine Act of 1936 (Audit Report No. 9-000-01-003-P).
The audit was designed to answer the following question:

   •   Did USAID’s Office of Food for Peace request the Commodity Credit Corporation
       prepare and submit to the Maritime Administration invoices to recover all
       outstanding cargo preference reimbursements for excess ocean freight for
       shipping cost incurred under the P.L. 480 Title II and Title III programs?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                  3
AUDIT FINDINGS
USAID’s Office of Food For Peace (FFP) requested that the U.S. Department of
Agriculture’s (USDA) Commodity Credit Corporation (CCC) prepare and submit to the
Department of Transportation’s Maritime Administration invoices to recover all
outstanding cargo preference reimbursements for the 20 percent excess ocean freight
for shipping costs incurred under P.L. 480 Title II and Title III programs. Subsequently,
Maritime Administration reimbursed USDA approximately $193 million for USAID’s
outstanding 20 percent excess ocean freight costs incurred for fiscal years 1994 though
2000.

As Recommendation No. 1 of the 2001 audit required, on August 17, 2001, USAID sent
a memorandum requesting that USDA prepare and submit to the Maritime
Administration invoices to recover all outstanding cargo preference reimbursements for
excess ocean freight for shipping costs incurred under the P.L. 480 Title II and Title III
programs. CCC re-calculated the amount to be reimbursed for the outstanding 20
percent excess ocean freight 5 to include actual incremental ocean freight differential 6
reimbursements. Consequently, CCC found that Maritime Administration owed USAID
food programs approximately $193 million.

In 2004, CCC received the USAID portion of the reimbursement of approximately $193
million, in total, from Maritime Administration (as illustrated in Appendix III). Since much
of the cargo preference reimbursement process is centralized within USDA, FFP officials
enhanced their monitoring efforts by reviewing supporting documentation. CCC created
a spreadsheet to document the breakdown of the 20 percent excess ocean freight
reimbursement, for each fiscal year, by food program and provided it to FFP officials for
management review. The spreadsheet included, the total value of commodities shipped;
the total cost of ocean freight; the total program cost; and ocean freight differential
previously reimbursed by Maritime Administration. To complete the cargo preference
reimbursement process, CCC officials apportioned the funds to an account established
within the U. S. Department of Treasury for USAID. 7 After FFP officials received the
spreadsheet, they independently tested the data and determined that USDA’s estimated
reimbursement calculations were reasonable.

Much of the delay in USAID’s receipt of the outstanding 20 percent excess ocean freight
reimbursement received in 2004 was caused by a disagreement over the interpretation
of the July 1987 Memorandum of Understanding, which established the administrative
responsibilities for the cooperation between USAID, USDA, and the Department of
Transportation. Although these U. S. Government agencies were tasked with specific
responsibilities for the cargo preference programs, a lengthy calculation methodology
dispute between the three agencies arose, which lasted more than 3 years. Initially, in
2001, Maritime Administration refused to pay any of the outstanding 20 percent excess
5
  The amount by which the total cost of ocean freight borne by CCC exceeds 20 percent of the
total value of the commodities shipped for all CCC programs.
6
  The amount by which the cost of ocean transportation is higher because of cargo preference
regulations than it would be if foreign transportation was used.
7
  Maritime Administration made five reimbursements to CCC totaling approximately $193 million
from May 2004 to September 2004 for USAID food programs (see Appendix III).


                                                                                           4
ocean freight reimbursements because of this dispute. Both USAID and USDA, as
shipper agencies, believed that the incremental ocean freight differential reimbursement
should be deducted from the shipping costs before calculating the 20 percent excess
ocean freight reimbursement. Maritime Administration, on the other hand, took the
position that the ocean freight differential reimbursement should have been deducted
from the total program costs. The calculation methodology preferred by Maritime
Administration would result in a reduced reimbursement of the 20 percent excess ocean
freight.

Because of ambiguities in the Memorandum of Understanding, the Maritime
Administration was not able to adequately determine when the previously reimbursed
incremental ocean freight differential should be subtracted in the calculation of the 20
percent excess ocean freight reimbursement. In attempts to resolve this dispute, the
Department of Transportation’s Office of Inspector General released an audit report 8 that
included a recommendation that required Maritime Administration to pay the lesser
amount of the two calculation methodologies. In a subsequent review, the Department of
Transportation’s General Counsel concluded that the calculation methodology of the
shipper agencies (i.e., USAID and USDA) was the appropriate method. Consequently,
Maritime Administration was required to reimburse all of the remaining outstanding 20
percent excess ocean freight to the shipper agencies.

USAID, USDA and the Department of Transportation are working together to improve
other aspects of the Cargo Preference Reimbursements process. The three agencies
have made efforts to (1) update the Memorandum of Understanding to reflect more
current situations, (2) clarify the calculation methodologies, and (3) investigate
accelerated payment options to facilitate expedited cargo preference reimbursements.




8
 Cargo Preference Billing and Payment Process, Report Number FI-2004-057, dated May 5,
2004.

                                                                                        5
EVALUATION OF
MANAGEMENT COMMENTS
USAID’s Office of Food For Peace agreed with the contents of this audit report.




                                                                                  6
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this follow-up audit of Recommendation No.1
included in the Audit of USAID’s Cargo Preference Reimbursements under Section 901d
of the Merchant Marine Act of 1936, dated March 30, 2001, in accordance with generally
accepted U.S. government auditing standards. Recommendation No. 1 stated:

       We recommend that USAID’s Director of the Office of Food for Peace
       request the Commodity Credit Corporation to prepare and submit to the
       Maritime Administration invoices to recover all outstanding cargo
       preference reimbursements for excess ocean freight, currently estimated
       at $175 million, for shipping cost incurred under the P.L. 480 Title II and
       Title III programs during fiscal years 1994 through 2000.

This limited scope audit included fieldwork that was performed between October 27,
2005 and February 24, 2006 in USAID’s Washington, D.C. offices. The audit covered
cargo preference reimbursements for outstanding excess ocean freight shipments
incurred under the P.L. 480 Title II and Title III programs from fiscal years 1994 through
2000. Our review of management controls focused on reviews by management at the
functional and activity levels, controls over information processing, and accurate and
timely recording of transactions and events.


Methodology
In planning and performing our audit work, we obtained and reviewed the Audit of
USAID’s Cargo Preference Reimbursements under Section 901d of the Merchant
Marine Act of 1936, dated March 30, 2001. To accomplish the audit objective, we
conducted interviews with officials at USAID and USDA. We developed the audit
program to facilitate accomplishing the audit objective by performing the following tasks:

•   Gathered information and examined relevant laws, regulations and guidance that
    included Section 901d of the Merchant Marine Act of 1936, as amended, to gain a
    better understanding of cargo preference and the reimbursement process.

•   Flowcharted the 20 percent excess ocean freight reimbursement process to review
    the controls over the process.

•   Reconciled excess ocean freight annual cargo preference amounts to supporting
    documentation.

•   Verified that USAID received the outstanding reimbursements from fiscal years 1994
    through 2000.

We relied on supporting documentation from USAID and USDA officials; computer-
generated data from Intra-Governmental Payment and Collection (IPAC) System; and



                                                                                        7
the Program Commodities Inventory Management System, that is also known as
PCIMS-core, a financial accounting system used to support our audit conclusions.
During the audit, we did not verify the adequacy and application controls of either the
IPAC or PCIMS-core systems; but we determined the reliability of the computer-
generated data through alternate methods, such as reviewing documentation supporting
the cargo preference reimbursement billings and payments.

The materiality threshold for this audit was such that, if at least 95 percent of the
outstanding reimbursement was received, the audit objective would be answered
positively; if the amount of outstanding reimbursement received was at least 90 percent
but less than 95 percent, the audit objective would receive a positive answer with a
qualification; however, if less than 90 percent of the outstanding reimbursement was
received, the audit objective would be answered negatively.




                                                                                     8
                                                                             APPENDIX II



MANAGEMENT COMMENTS
MEMORANDUM


TO:            IG/A/PA Director, Steven H. Bernstein

FROM:          DCHA/FFP Acting Director, Jonathan Dworken

DATE:          April 6, 2006

SUBJECT:       Follow-up Audit of Recommendation No. 1 Included in the Audit of
               USAID’s Cargo Preference Reimbursements under Section 901d of
               the Merchant Marine Act of 1936, Audit Report No. 9-000-01-003-P,
               dated March 30, 2001.(Report No. 9-000-06-00X-P)

Thank you for the opportunity to review the draft subject audit memorandum. The results
of this report clearly indicate that the auditors took appropriate measures to ensure the
collection of MARAD reimbursements occurred and all outstanding collections were
recovered for excess ocean freight for shipping costs under P.L. 480 Title II and Title III
programs. In addition, the audit serves as documentation for FFP implementing a
system of internal controls and acknowledges the continued improvement efforts
between USAID, the U.S. Department of Agriculture and the Department of
Transportation.

Since there were no Inspector General recommendations cited in this report, FFP will
not have any follow-up actions. In addition, FFP does not have any management
comments to add to this report.

The IG’s performance audit staff is to be commended for conducting such a thorough
follow-up of the Cargo Preference Reimbursement Audit.




                                                                                         9
                                                                                APPENDIX III




            20 Percent Excess Ocean Freight Reimbursements Received



Date                                  Amount Received                  Explanation
May 2004                              $ 72,124,375                     FY ’97/99/00 9
June 2004                             $ 69,658,003                     FY ‘97/99/00
July 2004                             $ 16,228,138                     FY ‘97/99/00 10
August 2004                           $ 20,830,995                     FY ‘98
September 2004                        $ 13,732,470                     FY ’95 & ‘96

Total Reimbursements
Received                              $ 192,573,981 11




9
  This amount was based on Maritime Administration’s calculation methodology.
10
   Additional reimbursement due to correction of calculation methodology.
11
   Fiscal year 1994 resulted in no reimbursement due to the averaging of all food aid programs,
not meeting the qualifying criteria for reimbursement.

                                                                                            10
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
